July 14, 2021
Via Filing and Messenger
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

CVS Pharmacy, Inc. v. Doe, No. 20-1374

Dear Mr. Harris:
I represent petitioners in the above-captioned matter.
extension of time to file the briefs as follows:
Brief of petitioners and joint appendix:
Brief of respondents:

I write to request an

September 3, 2021
October 22, 2021

Both parties have agreed to the foregoing schedule, which would enable this case to
be heard during the Court’s December sitting. Should you need any additional information
from me, please do not hesitate to let me know.
Yours sincerely,
/s/ Lisa S. Blatt
cc: Counsel for Respondents

